                                                                       ICN: 31179-23-176




MEMORANDUM                           Office of the Inspector General

Date:   June    28,   2001                                                   Refer To:

To:     Larry   G. Massanari
        Acting Commissioner
         of Social Secu rity

From:
        Inspector General

       Medical Evidence of Record Collection Process at State Disability Determination
Subject:Services (A-07 -99-21 003)


        The attached final report presents the results of our audit. Our objectives were to:
        (a) review and assess the efficiency of the medical evidence of record collection
        process at State Disability Determination Services (DDS), and (b) assess the DDS'
        ability to provide the Social Security Administration with management data.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the final report,
        please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
        General for Audit, at (410) 965-9700.




                                                         James G. Huse, Jr.


        Attachment
          OFFICE OF

   THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION




   MEDICAL EVIDENCE OF RECORD
      COLLECTION PROCESS
       AT STATE DISABILITY
     DETERMINATION SERVICES

   June 2001      A-07-99-21003
                                      Mission

We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration  officials, the Congress, and the public.

                                     Authority

The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  0   Conduct and supervise independent and objective audits and

      investigations relating to agency programs and operations.

  o   Promote economy, effectiveness, and efficiency within the agency.

  0   Prevent and detect fraud, waste, and abuse in agency programs and

      operations.

  0   Review and make recommendations        regarding existing and proposed

      legislation and regulations relating to agency programs and operations.

  0   Keep the agency head and the Congress fully and currently informed of

      problems in agency programs and operations.


  To ensure objectivity,   the IG Act empowers   the IG with:

  o   Independence to determine what reviews to perform.
  0   Access to all information necessary for the reviews.
  0   Authority to publish findings and recommendations    based on the reviews.

                                       Vision

By conducting independent and objective audits, investigations,  and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                        Executive Summary
OBJECTIVE
Our objectives were to: (a) review and assess the efficiency of the medical evidence of
record (MER) collection process at State Disability Determination Services (DDS); and
(b) assess the DDS’ ability to provide the Social Security Administration (SSA) with
management data.

BACKGROUND
SSA is responsible for establishing the policies on developing disability claims under the
Disability Insurance (DI) and Supplemental Security Income (SSI) programs. Disability
determinations under SSA’s DI and SSI programs are performed by each State’s DDS
in accordance with Federal regulations. DDSs are responsible for obtaining adequate
medical evidence to support the disability decision. In doing so, DDSs may purchase
consultative examinations (CE) to supplement the MER obtained from claimants’
treating sources. SSA reimburses DDSs for 100 percent of allowable expenditures.

SSA instructs DDSs to make every reasonable effort to obtain MER from claimants’
treating sources. SSA’s instructions define every reasonable effort as: (1) making an
initial request for MER from the treating source; (2) making a follow-up request any time
between 10 and 20 calendar days after the initial request if the MER has not been
received; and (3) allowing a minimum of 10 calendar days from the follow-up request for
the treating source to respond. If MER is not received within 10 calendar days from the
follow-up request, the DDS can purchase a CE—an expensive and time-consuming
process.

RESULTS OF REVIEW
The current MER collection times account for a considerable portion of overall disability
claims processing times because the processes of requesting and receiving MER are
slow and labor-intensive for both the DDS and the claimant’s treating source. First, the
DDS sends a MER request letter to the treating source(s) identified by the claimant on
his/her disability application. The treating source photocopies the MER and returns it to
the DDS via mail or, in some cases, facsimile. Timeliness of MER receipt is dependent
on the treating source’s workload and cooperation. As such, the time it takes treating
sources to respond to DDS requests for MER can vary from a few days to several
weeks.

We calculated the time it took eight DDSs to receive MER from claimant treating
sources during Fiscal Year 1998. For the 663,293 MER purchased by the 8 DDSs,
64.8 percent of the MER were received within 30 days from the date of request. For the
remaining 35.2 percent, the 8 DDSs waited more than 30 days to receive the MER.



MER Collection Process at State DDSs (A-07-99-21003)                                        i
This represented 233,300 MER at a cost to SSA of almost $3 million. Six of the eight
DDSs received 76 percent to 88 percent of their MER within 30 days. However, the
North Carolina and Oklahoma DDSs received MER within 30 days for only 39 percent
and 53 percent of their requests, respectively.

Our review also disclosed that delays in receiving MER from treating sources resulted in
SSA paying for MER that was not received by the DDS until after the disability decision
was made. The 8 DDSs in our review expended over $1 million to purchase
78,709 MER that were not received until after the DDS made the disability decision.
The North Carolina DDS accounted for 60 percent of these MER purchases. Delays in
DDSs receiving MER from treating sources can, but do not necessarily, result in the
DDSs purchasing costly CEs in order to obtain medical evidence to support the
disability decision. Due to insufficient management data, we were unable to determine
whether delays in receiving these 78,709 MER resulted in the DDSs purchasing
unnecessary CEs.

We found that the DDS’ ability to provide SSA with management data related to MER
collection times varied. This variance was attributed to DDSs using different computer
systems to collect MER data and to SSA not providing DDSs with uniform MER data
collection requirements.

SSA is currently involved in the Specialized MER Professional Relations Officer project.
This project dedicates a professional or medical relations officer solely to activities
related to MER collection and is expected to last 2 years. There are six DDSs
participating in the project: Puerto Rico, Florida, Illinois, Louisiana, Nebraska, and
Idaho. The project is in the initial stages and to date there are no reportable results.
The purpose of the project is to determine whether assigning one professional relations
officer in each DDS to duties solely to MER retrieval will promote the timely receipt of
quality MER and ultimately decrease CE costs.

In collecting medical evidence, SSA must consider standards implemented as a result
of the Health Insurance Portability and Accountability Act (HIPAA) of 1996. HIPAA
requires the Secretary of the Department of Health and Human Services (HHS) to adopt
national uniform standards to be followed by health plans, health care providers, and
health insurers in disclosing medical information. Although HHS may not regulate
SSA’s disclosure of medical information, the new regulations will have a significant
impact on SSA’s ability to obtain MER from medical sources.

RECOMMENDATIONS
We recommend that SSA:

•	 Pursue options for improving MER collection times at DDSs experiencing problems
   in receiving MER within 30 days from the date of the request. This should include
   sharing best practices of DDSs that have been innovative in obtaining MER timely.




MER Collection Process at State DDSs (A-07-99-21003)                                     ii
•	 Conduct a study to determine whether savings in CE costs could be realized by
   providing a financial incentive to medical providers who submit MER within 30 days
   from the date of the request.

•	 Improve its oversight of the DDS MER collection process by: (a) developing uniform
   MER data collection requirements for DDSs; and (b) performing periodic evaluations
   of MER collection processes and times at DDSs to develop best practices.

AGENCY COMMENTS
SSA agreed with our first recommendation, but did not agree with our second and third
recommendations. With regard to our second recommendation, SSA stated that an
internal focus group determined that the fee paid for MER is not a critical issue, and that
a financial incentive would raise the total cost of obtaining evidence without improving
compliance by the providers. SSA also disagreed with the third recommendation,
stating that uniform data collection requirements would impose a burden on DDSs to
make software and processing adjustments or to undertake a prohibitive manual
process. (See Appendix D for SSA’s comments.)

OIG RESPONSE
In its comments to our second recommendation, SSA stated that raising the fee for
MER would simply raise the total cost of obtaining evidence without improving
compliance by the providers. Our recommendation was not intended to imply an
increase in MER payment amounts; nor, was it intended to provide an incentive
payment to providers who do not comply with timely submission of MER. Rather, the
study should consider paying the current fee to providers who submit MER within
30 days, and paying a lesser fee to providers who exceed the 30-day submission date.

With regard to our third recommendation, we acknowledge SSA’s concern that software
and processing adjustments may provide an initial burden on DDSs. However, we do
not believe that software modifications or processing adjustments are insurmountable
problems given the importance of management information to SSA’s oversight of the
disability determination process. Furthermore, as DDSs are converted to the IBM
AS/400 computer system, we would expect improvements in the DDS’ ability to collect
electronic data accurately and timely.




MER Collection Process at State DDSs (A-07-99-21003)                                      iii
                                                         Table of Contents

                                                                                                              Page

INTRODUCTION .................................................................................................... 1

RESULTS OF REVIEW.......................................................................................... 4

    The Current MER Collection Process ............................................................... 4

    The Ability of DDSs to Provide MER Management Data................................... 6

    SSA’s MER Collection Pilot Project................................................................... 7

    Medical Evidence Collection and HIPAA........................................................... 7

CONCLUSIONS AND RECOMMENDATIONS ...................................................... 9


APPENDICES


APPENDIX A – Sampling Methodology and Data Analysis


APPENDIX B – Status of Prior Recommendation


APPENDIX C – SSA’s Computer Conversion Timeline for DDSs


APPENDIX D – Agency Comments


APPENDIX E – OIG Contacts and Staff Acknowledgements





MER Collection Process at State DDSs (A-07-99-21003)
                                                                 Acronyms


     BAH                Booz-Allen & Hamilton


     CE                 Consultative Examination


     CY                 Calendar Year


     DDS                Disability Determination Services


     DI                 Disability Insurance


     EDI                Electronic Data Interchange


     FY                 Fiscal Year


     HHS                Department of Health and Human Services


     HIPAA              Health Insurance Portability and Accountability Act


     MER                Medical Evidence of Record


     NDDSS              National Disability Determination Services System


     OIG                Office of the Inspector General


     POMS               Program Operations Manual System


     SSA                Social Security Administration


     SSI                Supplemental Security Income


     SSN                Social Security number





MER Collection Process at State DDSs (A-07-99-21003)
                                                                     Introduction

OBJECTIVE
Our objectives were to: (a) review and assess the efficiency of the medical evidence of
record (MER) collection process at State Disability Determination Services (DDS); and
(b) assess the DDS’ ability to provide the Social Security Administration (SSA) with
management data.

BACKGROUND
SSA is responsible for establishing the policies on developing disability claims under the
Disability Insurance (DI) and Supplemental Security Income (SSI) programs. Disability
determinations under SSA’s DI and SSI programs are performed by each State’s DDS
in accordance with Federal regulations.1 DDSs are responsible for obtaining adequate
medical evidence to support the disability decision. In doing so, DDSs may purchase
consultative examinations (CE) to supplement the MER obtained from claimants’
treating sources.2 SSA reimburses DDSs for 100 percent of allowable expenditures.

In making disability determinations, the DDS develops a claimant’s complete medical
history for a 12-month period based on the earliest of: (1) the application filing date;
(2) the date last insured; (3) the prescribed period ending date; or (4) the attainment of
age 22. If the disability is alleged to have begun during the 12 months preceding the
application date, then the medical history is developed based on the alleged disability
onset date. To develop the claimants’ medical history, DDSs obtain and review MER
from claimants’ treating sources. MER includes, but is not limited to, copies of
laboratory reports, prescriptions, x-rays, ancillary tests, operative and pathology reports,
consultative reports, and other technical information that documents the claimant’s
health condition.

SSA instructs DDSs to make every reasonable effort to obtain MER from claimants’
treating sources. SSA’s instructions define every reasonable effort as: (1) making an
initial request for MER from the treating source; (2) making a follow-up request any time
between 10 and 20 calendar days after the initial request if the MER has not been
received; and (3) allowing a minimum of 10 calendar days from the follow-up request for
the treating source to respond.3 If MER is not received within 10 calendar days from the
follow-up request, the DDS can purchase a CE—an expensive and time-consuming
process.

1
 States may turn this function over to the Federal government if they no longer are able to make disability
determinations. [20 C.F.R. §§ 404.1503(a) and 416.903(a)]
2
    CEs include medical and psychological examinations, x-rays, and laboratory tests.
3
 SSA Program Operations Manual System DI 22505.001B.4, “Every Reasonable Effort.” This instruction
implies that 30 days is a reasonable timeframe for DDSs to receive MER from treating sources.


MER Collection Process at State DDSs (A-07-99-21003)                                                     1
Congress authorized SSA to pay for MER under the SSI program since its inception in
1974 because it was considered unreasonable to expect a claimant to pay for MER
under a needs-based program.4 In 1980, Congress authorized SSA to pay for MER
under the DI Program. In doing so, Congress believed that MER would be received
more timely if payment was made, and costs would be reduced since CEs may not be
needed.5

SCOPE AND METHODOLOGY
To accomplish our objective we:

•	 Reviewed sections of the Social Security Act, the Code of Federal Regulations, and
   SSA’s Program Operations Manual System (POMS).

•	 Randomly selected 10 DDSs for on-site field work and obtained electronic data files
   of MER and CE payments made during the period of October 1, 1997, through
   September 30, 1998.6

•	 Conducted site visits at SSA, Baltimore, Maryland; the Wisconsin DDS; and the
   Kansas DDS.

•	 Compared MER and CE payment amounts in the electronic data files obtained from
   the 10 DDSs to the MER and CE payment amounts reported to SSA on the Report
   of Obligations (Form SSA-4513) to validate the completeness of the data.

•	 Performed an analysis of MER receipt times for eight DDSs by calculating: (a) the
   time elapsed between the date the DDS requested MER and the date the MER was
   received by the DDS; and (b) the number and cost of MER received and paid for
   after the date the disability decision was made (see Appendix A).

•	 Obtained information from the 48 continental United States DDSs on their MER
   collection process.7

4
  Social Security Amendments of 1971, Pubic Law 92-603 (86 Stat. 1329); H.R. Rep. 92-231 at 148,
reprinted at 1972 U.S. Code Cong. and Admin. News, p. 5134.
5
  Social Security Disability Amendments of 1980, Public Law 96-265 (94 Stat. 441), section 309 codified
at section 223(d)(5) of the Social Security Act, 42 U.S.C. section 423(d)(5); S. Rep. 96-408 at 59,
reprinted at 1980 U.S. Code Cong. and Admin. News, p.1337.
6
 DDSs selected were Delaware, Illinois, Iowa, Kansas, Massachusetts, North Carolina, Oklahoma, Utah,
Virginia, and Wisconsin. The Illinois and Virginia DDSs were excluded from the review because they
were unable to provide all of the requested data files. Therefore, our analysis was performed for
eight DDSs.
7
 There are 54 DDSs; however, we excluded Hawaii, Alaska, District of Columbia, Puerto Rico, Guam,
and the Virgin Islands.


MER Collection Process at State DDSs (A-07-99-21003)                                                      2
•	 Reviewed information on SSA and DDS pilot MER projects received from DDSs and
   SSA’s Central and Regional Offices.

•	 Reviewed Booz-Allen & Hamilton’s (BAH) Report on the Use, Storage, and
   Exchanges of Electronic Medical Records and Documents in the Health Industry.

•   Reviewed the Health Insurance Portability and Accountability Act (HIPAA) of 1996.

•   Reviewed SSA’s 2010 Vision Plan dated August 2000.

We conducted our audit between June 1999 and January 2001 in Kansas City,
Missouri. The entities reviewed were State DDSs and the Office of Disability under the
Deputy Commissioner for Disability and Income Security Programs. Our audit was
conducted in accordance with generally accepted government auditing standards.




MER Collection Process at State DDSs (A-07-99-21003)                                     3
                                                         Results of Review

Our review showed that improvements are needed in MER collection times. Our
analysis identified delays in DDSs receiving MER from treating sources. We found that
these delays resulted in SSA paying for MER that was not received by the DDSs until
after the disability decision was made. We also found that the DDS’ ability to provide
SSA with management data related to MER collection times varied. This variance was
attributed to DDSs using different computer systems to collect MER data and to SSA
not providing DDSs with uniform MER data collection requirements.

THE CURRENT MER COLLECTION PROCESS
The DDS sends a MER request letter to the treating source(s) identified by the claimant
on his/her disability application. The treating source photocopies the MER and returns it
to the DDS via mail or, in some cases, facsimile. Timeliness of MER receipt is
dependent on the treating source’s workload and cooperation. As such, the time it
takes treating sources to respond to DDS MER requests can vary from a few days to
several weeks.

                      We calculated the time it took eight DDSs to receive MER from
MER Collection        claimant treating sources during Fiscal Year (FY) 1998. For the
for Eight DDSs        663,293 MER purchased by the 8 DDSs, 64.8 percent of the MER
                      was received within 30 days from the date of request (see
Appendix A). For the remaining 35.2 percent, the eight DDSs waited more than 30 days
to receive the MER. This represented 233,300 MER at a cost of $2,964,615 to SSA.
The following chart provides the MER collection times for the eight DDSs.

                              M E R C o l l e c t i o n T i m e s

                                                                s
                                        >9 0 Da y s        > 1 2 0 Da y s
              > 6 0 Da y s            < = 1 2 0 Da y s    < = 2 4 0 Da y s
             < = 9 0 Da y s                1 .8 %              1 .2 %
                  5 .8 %              1 1 ,9 5 4 M ER      7 ,9 0 7 M ER
                                                                                            >2 4 0 Da y s
            3 8 ,6 4 7 M ER
                                                                                                0 .1 %
                                                                                             6 3 6 M ER




         > 3 0 Da y s
        < = 6 0 Da y s
            2 6 .3 %
                                                                               <= 3 0 Da y s
      1 7 4 ,1 5 6 M ER
                                                                                   6 4 .8 %
                                                                             4 2 9 ,9 9 3 M ER




MER Collection Process at State DDSs (A-07-99-21003)                                                        4
Six of the eight DDSs received 76 percent to 88 percent of their MER within 30 days.
However, the North Carolina and Oklahoma DDSs, received MER within 30 days for
only 39 percent and 53 percent of their requests, respectively. SSA should consider
options for improving MER collection times at these DDSs.

MER Received                Our review also disclosed that delays in receiving MER from
After the                   treating sources resulted in SSA paying for MER that was not
Disability                  received by the DDS until after the disability decision was made.
Decision                    The 8 DDSs in our review expended $1,011,772 to purchase
                            78,709 MER that were not received until after the DDS made the
                            disability decision, as shown in the following table.8

                                                                          Average Number of
                             Number of MER                                  Days from the
                            Received After the                MER         Decision Date to the
        State DDS           Disability Decision           Expenditures    MER Received Date
      Delaware                      1,924                   $ 26,291              24
      Iowa                          1,801                      30,921             34
      Kansas                        3,654                      46,856             23
      Massachusetts               10,189                      148,692             31
      North Carolina              47,266                      566,050             24
      Oklahoma                      9,536                     130,165             22
      Utah                            888                      11,536             47
      Wisconsin                     3,451                      51,261             51
         Total                    78,709                   $1,011,772             32

According to SSA’s instructions, DDSs are to review MER received after the disability
decision and determine whether it has an affect on the initial disability decision.9 The
DDS staff we interviewed stated that paying for MER received after the initial disability
decision continues because: (1) the MER may be needed if the claimant appeals the
initial decision; (2) the DDSs do not want to alienate treating sources by refusing to pay
for untimely MER; and/or (3) payment is required by State law.




8
   The North Carolina DDS accounted for 60 percent of these MER. According to the North Carolina DDS,
the MER receipt date provided to us in its data file was the same as the MER payment date which may
not be the actual date the MER was received. The DDS does not record the actual date MER is received.
If the North Carolina DDS was excluded from our analysis, the MER collection times for the remaining
seven DDSs would be as follows: less than 31 days, 78.5 percent; 31 to 60 days, 16.5 percent;
61 to 90 days, 3.2 percent; 91 to 120 days, 1 percent; 121 to 240 days, 0.7 percent; and over 240 days
0.1 percent.
9
    POMS DI 22520.001, Disposition of Trailer Material.


MER Collection Process at State DDSs (A-07-99-21003)                                                5
THE ABILITY OF DDSs TO PROVIDE MER MANAGEMENT DATA
We found that the DDS’ ability to provide SSA with management data related to MER
collection varies. The variance exists because DDSs use different computer systems to
collect MER data and SSA has not provided DDSs with uniform requirements for MER
data collection.

                       We found that the ability of DDSs to provide information and the
DDS Computer           type of information DDSs can provide varies and this presented
Systems                us with several problems in collecting and analyzing MER data for
                       this review. The DDSs use multiple, disparate and incompatible
computer systems and software to process disability claims. There are 54 DDSs that
support a variety of software programs.10 Currently, there are 26 DDSs using WANG
computer systems. However WANG no longer provides technical support to these
DDSs. SSA is in the process of converting these 26 DDSs to the IBM AS/400 computer
system used by other DDSs. The conversion for the first DDS—Wisconsin—was
scheduled to begin on October 1, 2000. However, as of January 2001, the conversion
had not begun. See Appendix C for the DDS computer conversion timeline.

A March 1997 Office of the Inspector General (OIG) report, The Social Security
Administration’s Payment for Medical Evidence of Record Obtained by State Disability
Determination Services (A-07-95-00833), recommended that SSA capture data on MER
collection times to determine the extent to which MER is not being submitted timely. In
its comments to the report, SSA agreed to perform an evaluation of MER collection
times within 9 months of the date of the OIG report or by December 1997. Based on
status of recommendation information obtained from SSA’s Management Analysis and
Audit Program Support staff in June 2000, the evaluation was not completed because of
DDS backlogs and workload pressures caused by high application rates. Appendix B
contains SSA’s comments on A-07-95-00833 and the status of the report’s
recommendation.

                         We found that SSA does not have adequate oversight of the
SSA’s Oversight of       MER collection process. SSA has not provided DDSs with
MER Collection           uniform MER data collection requirements. As such, DDSs
                         choose what MER information is collected resulting in
inconsistent information being collected at DDSs.

Also, SSA does not monitor MER collection times. The MER information we requested
from the DDSs for our review is essential management information that both the DDS
and SSA should use to monitor the timeliness of MER requested from treating sources.
For example, the Illinois DDS was unable to provide information on MER receipt times
because the information is not captured by the DDS. Therefore, we question how or if
the DDS determines the timeliness of MER receipt. Furthermore, without MER

10
  There are 28 DDSs that use Levy software; 15 DDSs that use Versa software; 2 DDSs that use MIDAS
software; 6 DDSs that are to install either Levy, Versa, or MIDAS software in FY 2000; and 3 DDSs that
use independent software.


MER Collection Process at State DDSs (A-07-99-21003)                                                 6
collection time information, the DDS could prematurely purchase costly CEs instead of
making every reasonable effort to obtain MER as outlined in SSA’s instructions.

SSA’s MER COLLECTION PILOT PROJECT
SSA’s most recent MER initiative is the Specialized MER Professional Relations Officer
project. This project dedicates a professional or medical relations officer solely to
activities related to the collection of MER and is expected to last 2 years. There are six
DDSs participating in the project: Puerto Rico, Florida, Illinois, Louisiana, Nebraska, and
Idaho. The project is in the initial stages and to date there are no reportable results.
The purpose of the project is to determine whether assigning one professional relations
officer in each DDS to duties solely to MER retrieval will promote the timely receipt of
quality MER and ultimately decrease CE costs.

MEDICAL EVIDENCE COLLECTION AND HIPAA
HIPAA requires the Secretary of the Department of Health and Human Services (HHS)
to adopt national uniform standards to be followed by health plans, health care
providers, and health insurers in disclosing medical information. Although HHS may not
regulate SSA’s disclosure of medical information, the new regulations may have a
significant impact on SSA’s ability to obtain MER from medical sources. SSA has
assigned responsibilities for implementation of HIPAA and related electronic medical
information activities to the Office of Disability and Income Support Programs.

According to SSA, there are three HIPAA standards that may impact the disability
determination process: (1) electronic data standards; (2) security standards; and
(3) privacy standards.

                       Electronic data interchange (EDI) is the electronic transfer of
Electronic Data
                       information. EDI allows entities within the health care system to
Standards
                       exchange medical, billing, and other information, as well as
process transactions in a fast and cost effective manner. The health care industry
recognizes the benefits of EDI and many entities within the industry have developed
their own EDI formats. HIPAA required HHS to adopt national standards for EDI
formats for health care information transactions, as well as code sets to be used in
those transactions. Code set means any set of codes used for encoding data elements,
such as tables of terms, medical concepts, medical diagnosis codes, or medical
procedure codes.

HHS published the final rule for the “standards for electronic transactions” in the Federal
Register11 on August 17, 2000. Most covered entities have 24 months to comply with
the standards. SSA will be affected by these standards because medical providers may
not be willing to provide medical records to SSA unless it is done electronically using a
standardized coding system.

11
     65 Fed. Reg. 50312 (Aug. 17, 2001).


MER Collection Process at State DDSs (A-07-99-21003)                                      7
Security            The security of health information is especially important when the
Standards           information can be directly linked to an individual. Confidentiality is
                    threatened by the risk of improper access to electronically stored
                    information and by the interception of the information during
electronic transmission. Also, there is a potential need to associate signature capability
with information being electronically stored or transmitted.

HIPAA requires HHS to establish security and electronic signature standards for health
care information and individually identifiable health care information maintained or
transmitted electronically. Health plans, health care clearinghouses, and health care
providers would use the security standards to develop and maintain the security of
electronically transmitted health care information.

The HHS Health Care Financing Administration is coordinating the development of
standards for security and electronic signature. This effort involves staff from various
Federal agencies including SSA. These standards will impact SSA if information has to
be encrypted.

                      Individuals who provide sensitive information to health care
Privacy               professionals want assurance that the information will be protected
Standards             during the course of their treatment and in the future. HIPAA
                      requires HHS to establish standards to protect the privacy of
individually identifiable health information maintained or transmitted by health plans,
health care clearinghouses, and certain health care providers. The HHS has adopted
comprehensive regulations that would prohibit the disclosure of most patient information
except as authorized by the patient or as explicitly permitted by the legislation.

HHS published the final rule for the “standards for privacy of individually identifiable
health information” in the Federal Register12 on December 28, 2000 and it became
effective on April 14, 2001. Most covered entities have 24 months to comply with the
standards. SSA will be affected by these standards because providers may take a
cautious, restrictive approach to implementing the privacy rules regarding disclosure of
medical records.




12
   65 Federal Register 82462 (December 28, 2000). In response to public comment on the final rules, on
February 28, 2001, HHS published notice that it would accept further public comment for an additional
30 days. 66 Federal Register 12738 (February 28, 2001). The comment period closed on
March 30, 2001. HHS specified that this additional comment period would not otherwise alter the
effective date of the regulations. However, we are aware that the current standards for privacy of
individual identifiable health information may be subject to amendment which could have further potential
impact on the MER collection process.


MER Collection Process at State DDSs (A-07-99-21003)                                                    8
                                                       Conclusions and
                                                       Recommendations
In 1994, SSA announced its plans to redesign the disability determination process in a
report titled Plan for a New Disability Claims Process. In this report, SSA attributed
lengthy disability claims processing times, in part, to delays DDSs experienced in
receiving MER from claimant treating sources. The report acknowledged the value of
the treating sources’ information and suggested the establishment of a national fee
reimbursement schedule for medical evidence. Furthermore, the report suggested
rewarding the treating source based on timeliness and quality of the medical evidence.

Our review shows that improvements are needed in the MER collection process. Our
analysis of MER collection times at eight DDSs found that DDSs experienced delays in
receiving MER from claimants’ treating sources. As a result of these delays, SSA paid
for MER that was not received until after the DDSs made the initial disability decision.

We also found that SSA does not have adequate oversight of the DDS MER collection
process. SSA has not established uniform MER data collection requirements nor does
it monitor MER collection times. Finally, SSA must continue to give attention to the
implementation of HIPAA standards to ensure the DDS’ ability to obtain timely and
uniform electronic information from the health care community.

We recommend that SSA:

1. 	 Pursue options for improving MER collection times at DDSs experiencing problems
     in receiving MER within 30 days from the date of the request. This should include
     sharing best practices of DDSs that have been innovative in obtaining MER timely.

2. 	 Conduct a study to determine whether savings in CE costs could be realized by
     providing a financial incentive to medical providers who submit MER within 30 days
     from the date of the request.

3. 	 Improve its oversight of the DDS MER collection process by: (a) developing uniform
     MER data collection requirements for DDSs; and (b) performing periodic evaluations
     of MER collection processes and times at DDSs to develop best practices.

AGENCY COMMENTS
SSA agreed with our first recommendation. Specifically, in June 2001, SSA plans to
begin a 2-year pilot, “Specialized Medical Evidence of Record Professional Relations
Officer” in six States. The purpose of the pilot is to determine whether assigning one
professional relations officer in each DDS to duties related solely to MER retrieval will
promote the timely receipt of quality MER and ultimately decrease CE costs.



MER Collection Process at State DDSs (A-07-99-21003)                                        9
SSA did not agree with our second recommendation and stated that an internal focus
group determined that the fee paid for MER is not a critical issue. Furthermore, SSA
stated that a financial incentive would raise the total cost of obtaining evidence without
improving compliance by the providers. SSA also stated that current high priority
workloads, and the differences among DDS’ systems, make the recommended study
problematic.

SSA also disagreed with third recommendation and stated that uniform data collection
requirements would impose a burden on DDSs to make software and processing
adjustments or to undertake a prohibitive manual process. SSA also stated that in order
for it to perform periodic evaluations, most of the DDSs would have to manually track
MER and the need for CEs in cases where MER is not received or is not received in a
timely manner. (See Appendix D for SSA’s comments.)

OIG RESPONSE
In its comments to our second recommendation, SSA stated that raising the fee for
MER would simply raise the total cost of obtaining evidence without improving
compliance by the providers. Our recommendation was not intended to imply an
increase in MER payment amounts; nor, was it intended to provide an incentive
payment to providers who do not comply with timely submission of MER. Rather, the
study should consider paying the current fee to providers who submit MER within
30 days, and paying a lesser fee to providers who exceed the 30-day submission date.

With regard to our third recommendation, we acknowledge SSA’s concern that software
and processing adjustments may provide an initial burden on DDSs. However, we do
not believe that software modifications or processing adjustments are insurmountable
problems given the importance of management information to SSA’s oversight of the
disability determination process. Furthermore, as DDSs are converted to the IBM
AS/400 computer system, we would expect improvements in the DDS’ ability to collect
electronic data accurately and timely.

We acknowledge SSA’s concern regarding the MER collection times reported for the
North Carolina DDS. However, we do not concur with SSA’s position that the North
Carolina DDS’ data should be excluded from our report. We clearly state in footnote 8
that the North Carolina DDS’ MER collection times are based on MER payment dates
instead of receipt dates. Due to unavailable data, we do not know whether the timing
differences in the two dates would result in a material difference in our MER collection
time analysis. However, in consideration of SSA’s comments, we added the MER
collection times exclusive of the North Carolina DDS to footnote 8.

The MER collection process is a critical element of disability claims processing and we
strongly believe that SSA needs to improve its oversight of this process. In doing so,
SSA should establish uniform data collection requirements for claims processing
information, including MER. Without uniform data collection requirements, SSA will
encounter problems in analyzing MER data similar those found with the North Carolina


MER Collection Process at State DDSs (A-07-99-21003)                                     10
DDS data identified in this report. Although the North Carolina DDS had the ability to
collect various electronic data information, the absence of uniform data collection
requirements resulted in different information being collected by the DDS than what was
collected by other DDSs in our review. In its comments to this report, SSA stated that
the non-uniformity of data collection and different data systems make it difficult to
conduct programmatic reviews of the DDSs. We believe this is further support for
implementing our recommendation.




MER Collection Process at State DDSs (A-07-99-21003)                                 11
                                             Appendices





MER Collection Process at State DDSs (A-07-99-21003)
                                                                      Appendix A
Sampling Methodology and Data Analysis
SAMPLING METHODOLOGY
We randomly selected 10 Disability Determination Services (DDS) to provide electronic
data on medical evidence of record (MER) and consultative examination (CE) payments
issued during the period of October 1, 1997 through September 30, 1998. The
10 DDSs were Arizona, Delaware, Illinois, Massachusetts, New York, North Carolina,
South Dakota, Tennessee, Virginia, and Wisconsin.

We experienced difficulties in obtaining data from the 10 randomly selected DDSs and
dropped 4 DDSs from our review. The New York and Tennessee DDSs were dropped
because of their participation in recent Social Security Administration (SSA), Office of
the Inspector General audits. The South Dakota DDS was dropped because it could
not provide electronic data files. The Arizona DDS was dropped because it could not
electronically provide all data elements required for the audit. These four DDSs were
replaced with the Iowa, Utah, Oklahoma, and Kansas DDSs.

Accordingly, we obtained electronic data on CE and MER payments from the Delaware,
Illinois, Iowa, Kansas, Massachusetts, North Carolina, Oklahoma, Utah, Virginia, and
Wisconsin DDSs. We also received supporting information including the claimant name
and Social Security number (SSN). The Illinois and Virginia DDSs were excluded from
the review because they were unable to provide all requested information.

MER COLLECTION TIMES ANALYSIS
The following table shows the MER records included in our analysis and the associated
MER payments. We segregated the MER records into six categories based on the
elapsed time between the MER request date and the MER receipt date. Our analysis
included MER records with a received date between October 1, 1997 and
September 30, 1998.




MER Collection Process at State DDSs (A-07-99-21003)                                  A-1
    SUMMARY BY STATE DDS OF MER COLLECTION TIMES AND PAYMENTS


      MER                                                   North                           Numberof         MER
     Receipt    Delaware   Iowa     Kansas Massachusetts   Carolina Oklahoma Utah Wisconsin   MER          Payment
     Times        DDS      DDS       DDS       DDS          DDS       DDS     DDS   DDS     Payments       Amount
   30daysor       13,001   51,762   45,084      81,105      89,482    35,640 23,552 90,367   429,993      $6,333,368
       less
     31 to 60     2,970     6,017    5,355       18,960    102,851   24,744   3,178    10,081   174,156   $2,219,956
      days
    61 to 90        567      917       870        4,321     25,004    4,782    532      1,654    38,647    $485,916
      days
    91 to 120       157      246       214        1,528      7,472    1,644    185       508     11,954    $150,989
      days
   121 to 240       111      113       111        1,169      4,835    1,150    131       287      7,907     $99,275
      days
   Morethan          13       12         6          279        89      208      17        12       636       $8,479
    240 days
      Totals     16,819    59,067   51,640      107,362    229,733   68,168 27,595    102,909   663,293   $9,297,983




MER RECEIVED AFTER THE DISABILITY DECISION DATE ANALYSIS
We obtained Calendar Year (CY) 1997, CY 1998, and Fiscal Year (FY) 1999 electronic
versions of the National Disability Determination Services System (NDDSS). From the
NDDSS we downloaded information on the claimant name, claimant SSN, filing date,
decision date, and type of decision. We then matched information contained in the
FY 1998 DDS data files to the NDDSS data.

The next step was to limit our review to those FY 1998 MER that contained a disability
decision date after October 1, 1997. Once this step was complete, we compared the
MER received dates to the disability decision dates and selected those MER with the
latest disability decision date.




MER Collection Process at State DDSs (A-07-99-21003)                                                              A-2
                                                                        Appendix B
Status of Prior Recommendation
                                 SOCIAL SECURITY

MEMORANDUM

Date:      March 19, 1997

To:	       David C. Williams
           Inspector General

From:	     John J. Callahan
           Acting Commissioner of Social Security

Subject:   Office of Inspector General Draft Report, "The Social
           Security Administration's Payment for Medical Evidence of Record
           Obtained by State Disability Determination Services"
           (A-07-95-00833)--INFORMATION

We appreciate the opportunity to comment on this draft audit report since evidence

collection and related issues are so vital to disability processing time improvements.


SSA, in the Disability Process Redesign, plans to undertake a thorough reevaluation of

policies and procedures relative to the collection of evidence in support of

disability applications. This reevaluation will include a thorough study of the

relative effects of multiple factors on such performance measures as processing time

and consultative examination purchase rates (and dollar amounts). Untimely submission

of medical evidence of record (MER) is but one factor in this complex of issues that

SSA needs to consider. For example, at least some of the delay in MER development and

receipt is mail time, from the DDS to the source, and from the source back to the DDS.

Facsimile MER and other forms of electronic transmission of MER being pursued by SSA

offer promise to reduce MER processing time within the current MER payment system.


While we concur with your view that payment for MER should serve as an incentive for

timely and responsive submission of medical evidence, our evaluation, which should be

completed within 9 months, is designed so as to take a broader view of MER; therefore,

we are not prepared at this time to address your specific recommendation for statutory

change. If the results of our evaluation show that statutory changes are needed, SSA

will then propose the necessary legislation.


Our technical comments on the report are attached for your consideration. Staff

questions may be directed to Dan Sweeney on extension 51957.





MER Collection Process at State DDSs (A-07-99-21003)                               B-1
 CIN:                     A-07-95-00833

 Report	                  The Social Security Administration's Payments for Medical
                          Evidence of Record Obtained by State Disability Determination
                          Services


 Recommendation:	         Re-evaluate its policy for paying for MER. As part of this
                          re-evaluation, we suggest that SSA, for a specified time
                          period, have selected DDSs capture the time between the
                          initial MER request.

 Status:                  Status - June 2000

                          The Office of Disability (OD) planned to reevaluate
                          policies and procedures on the collection of Medical
                          Evidence of Record (MER), including payment for it and
                          the amount of time involved. The study was originally
                          designed to obtain: data on innovations by the Disability
                          Determination Services (DDS) to obtain MER quickly; input
                          from major medical organizations/stakeholders on their
                          opinions regarding non-payment for MER received more
                          than 30 days after request; statistics on the incidence of
                          MER received more than 30 days after request; and
                          Disability Examiners' analysis of individual cases to
                          determine if MER received more than 30 days after
                          request was material to the determination. The DDSs
                          have been unable to participate in the latter two parts of
                          the study due to backlogs and workload pressures caused
                          by high application rates, Drug and Alcohol Addiction
                          reevaluations, Continuing Disability Reviews, childhood
                          reviews, and OIG installations. Parts one and two of the
                          study are complete. OD planned to provide the OIG with
                          the data they now possess by May 31, 1999. During the
                          period just before OD was to report, OIG announced a new
                          audit (21999045) that is examining the entire MER
                          process. OD has been in contact with the IG staff and has
                          learned that the IG has completed the data gathering
                          phase of that audit; and current plans envision a
                          December 2000 release of the audit report . The data
                          collected for that audit is more current than that which OD
                          could have provided. Given that OD does not want to
                          duplicate OIG's efforts, OD will now attempt to evaluate
                          the IG's findings and new recommendations when they are
                          released and determine if an additional study is required
                          at that time. See recommendation number 21995027-1
                          for related information. (Williams--50380).




MER Collection Process at State DDSs (A-07-99-21003)                                      B-2
                                                                                     Appendix C
Social Security Administration’s (SSA)
Computer Conversion Timeline for Disability
Determination Services (DDS)
               Levy &                                              Software               Software
      SSA    Associates    DDS               DDS                Implementation         Implementation
      Tier     Group      Number             Client               Start Date              End Date
       1           1          1            Wisconsin            October 2000            June 2001
       1           1          2              Indiana           November 2000           August 2001
       1           1          3              Georgia           December 2000          September 2001
       1           1          4             Arkansas           December 2000          September 2001
       1           2          5              Federal              April 2001           January 2002
       1           2          6            Oklahoma               July 2001              April 2002
       1           2         7                 Iowa              August 2001             May 2002
       1           2          8         North Carolina         September 2001           June 2002
       1           2          9              Florida           September 2001           June 2002
       2           3         10               Idaho               April 2002           January 2003
       2           3         11              Arizona              June 2002             March 2003
       2           3         12         Massachusetts             July 2002              April 2003
       2           3         13              Kansas               July 2002              April 2003
       2           4         14          Rhode Island           February 2003         November 2003
       2           4         15          South Dakota             April 2003           January 2004
       2           4         16           Connecticut             April 2003           January 2004
       3           4         17       District of Columbia       March 2003           December 2003
       3           4         18           Washington             March 2003            January 2004
       3           5         19             Kentucky           November 2003           August 2004
       3           5         20           New Mexico            February 2004          October 2004
       3           5         21             Louisiana           February 2004          October 2004
       3           5         22             Montana             January 2004           October 2004
       3           6         23             Colorado            February 2004          October 2004
       3           6         24             Vermont            September 2004           June 2005
       3           6         25             Michigan           November 2004           August 2005
       3           6         26           Puerto Rico          November 2004           August 2005

              •	   This plan is based on starting the first step of the software migration in
                   Wisconsin DDS on October 1, 2000.
              •	   This plan assumes a “module (or group of modules) at a time” process
                   and estimates an implementation and roll out period for each module
                   for each DDS.
              •	   The “Software Implementation Start Date” is the start of Levy &
                   Associates consulting with the DDS.
              •	   The “Software Implementation End Date” is the estimated completion
                   for each DDS including roll out of the last module(s).
              •    Source of Timeline: Deputy Commissioner for Systems, Office of
                   Systems Requirements.




MER Collection Process at State DDSs (A-07-99-21003)
                                                       Appendix D

Agency Comments





MER Collection Process at State DDSs (A-07-99-21003)
MEMORANDUM


           June 8,2001                                                            Refer To:   s lJ-3

To:        JamesG. Huse, Jr.
           Inspector General
                                             /I/

           Larry G. Massanari



Subject:   Office of the Insp.f!torGeneral Draft Report, "Review of Medical Evidence of Record
           Collection Proces~~~the State Disability Determination Services"
           (A-O7-99-21003~INFORMA TION


           Thank you for the opportunity to review and comment on the subject report. We appreciate
           OIG's efforts in conducting this review. Our comments are attached.

           Staff questions may be directed to Janet Carbonaraon extension 53568

           Attachment:
           SSA Response
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "REVIEW OF MEDICAL EVIDENCE OF RECORD (MER) COLLECTION
PROCESS AT STATE DISABILITY DETERMINATION SERVICES (DDS)"
(A-07-99-21003)

We appreciate the OIG’s efforts in conducting this review. Before responding to the specific
recommendations, we want to note our concern with the information presented in the section
“The Current MER Collection Process” on pages 4 and 5 of the draft report. We believe that
inclusion of the data from the North Carolina DDS results in an inaccurate representation of
MER collection times. As the footnote on page 5 indicates, the North Carolina DDS reports the
date the MER was paid for, not the date the MER was received. The subject draft report treats
these dates as if they were the date the MER was received. Therefore, the North Carolina data
should be excluded from the report with a potential increase in the percentage of MER received
in 30 days from 64.8 percent to 78.5 percent.

Finally, in “Background” the OIG states, “If MER is not received within 10 calendar days from
the follow up request, the DDS can purchase a CE—an expensive and time-consuming process.”
The North Carolina DDS has the lowest CE rate in the Atlanta Region, and at 33.2 percent for
fiscal year 2000, ranks 37th among the States in terms of percentage of CEs requested for cases
processed. This actual experience of the North Carolina DDS seems to further indicate that the
data for that State should not be considered.

Our comments on the recommendations are provided below. Additionally, several technical
comments are included that we believe will improve the accuracy and content of the report.


Recommendation 1

Pursue options for improving MER collection times at DDSs experiencing problems in receiving
MER within 30 days from the date of the request. This should include sharing best practices of
DDSs that have been innovative in obtaining MER timely.

Comment

We agree. In June 2001, SSA will begin conducting a 2-year pilot, “Specialized Medical
Evidence of Record Professional Relations Officer.” The following States will be participating:
Puerto Rico, Florida, Illinois, Louisiana, Nebraska, and Idaho. The purpose of the pilot is to
determine if assigning one professional relations officer in each DDS to duties related solely to
MER retrieval will promote the timely receipt of quality MER and ultimately decrease
consultative examination (CE) costs. Also, we already share best practices in many subject
areas, including MER collection, with Professional Relations Officers at the annual National
Professional Relations Conference and in the publication, “The National Professional Relations
Bulletin.”




MER Collection Process at State DDSs (A-07-99-21003)                                           D-2
Recommendation 2

Conduct a study to determine whether savings in CE costs could be realized by providing a
financial incentive to medical providers who submit MER within 30 days from the date of the
request.

Comment

We disagree. In calendar year 2000, an SSA focus group on improving MER collection
determined that “The amount of the fee paid for MER is not a critical issue. While some
physicians do feel their time is more valuable than the remuneration provided by SSA... by and
large they view this as a necessary consequence of working with their patient.”

The report should note that the rates SSA pays for MER are far below the amounts paid for such
reports in the private market, so there is currently very little financial incentive for treating
source provision of MER. Even so, much of the requested MER (over 78 percent in this review,
as noted in our opening comment) is submitted within 30 days. The recommended approach
could simply raise the total cost of obtaining evidence without improving compliance by the
providers. If we raised the pay out to medical sources for MER for a study, it could prove
difficult to return to today's reimbursement amounts. Additionally, current high priority
workloads, which preclude the manual tracking required for such a study, and the differences
among the DDS systems available to track the effects of any monetary incentives make
conducting a study problematic.


Recommendation 3

Improve oversight of the DDS MER collection process by: a) Developing uniform MER data
collection requirements for DDSs and b) performing periodic evaluations of MER collection
processes and times at DDSs to develop best practices.


Comment

We disagree. As the OIG draft report notes, the DDSs use multiple, disparate and incompatible
computer systems and software. Uniform data collection requirements would impose a burden
on the DDSs to make software and processing adjustments or to undertake a prohibitive manual
process. In addition, we do not believe that uniform data collection requirements will improve
DDS efforts in obtaining timely MER. Knowing that a DDS waits an extra 10 to 20 days to
receive evidence from a particular source is not helpful. It would be necessary to know why.
The result would be a large data collection burden without indications that it would result in a
significant payoff.

In order for SSA to perform periodic evaluations, most of the DDSs would have to manually
track MER and the need for CEs in cases where MER is not received or is not received in a




MER Collection Process at State DDSs (A-07-99-21003)                                          D-3
timely manner. This tracking must be done by someone with intimate knowledge of the case
included for study and cannot be automated or undertaken manually in the foreseeable future
because of other workload pressures.

We believe that our efforts should instead continue to focus on obtaining timely MER. The
DDSs are already required to make every reasonable effort to obtain MER from treating sources.
Each DDS has treating sources who present unique challenges to their successfully meeting that
requirement, and they have worked out various ways to get the best responses possible from
these treating sources. We will continue to share their experience and best practices, regarding
MER and many other subject areas, with Professional Relations Officers at the annual National
Professional Relations Conference and through the publication, “The National Professional
Relations Bulletin.” In addition, the Specialized MER Professional Relations Officer Project
may give us additional insight into the effects on overall processing time of devoting staff to
obtaining MER.




MER Collection Process at State DDSs (A-07-99-21003)                                          D-4
                                                                        Appendix E
OIG Contacts and Staff Acknowledgements
OIG Contacts

   Rona Rustigian, Acting Director, Disability Program Audit Division (617) 565-1819

   Mark Bailey, Deputy Director, (816) 936-5591

Acknowledgements

In addition to those named above:

   Ron Bussell, Auditor-in-Charge

   Ken Bennett, Auditor


For additional copies of this report, please contact the Office of the Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-07-99-21003.




MER Collection Process at State DDSs (A-07-99-21003)
                                        DISTRIBUTION                SCHEDULE

                                                                                                        No. of
                                                                                                        CaRies

Commissioner        of Social Security                                                                         1
Management        Analysis      and Audit Program          Support    Staff, OFAM                         10

Inspector     General                                                                                          1
Assistant     Inspector     General     for Investigations                                                     1
Assistant     Inspector     General     for Executive      Operations                                          3
Assistant     Inspector     General     for Audit                                                              1
                                                       I
Deputy Assistant          Inspector     General     for Audit                                                  1
  Director,    Systems       Audit Division

  Director,    Financial     Management           and Performance       Monitoring     Audit Division          1
  Director,    Operational      Audit Division                                                                 1

  Director,    Disability    Program      Audit Division                                                       1

  Djrector,    Program       Benefits    Audit Division                                                        1

  Director,    General      Management        Audit Division

Issue Area Team Leaders                                                                                   25


Income Maintenance            Branch,     Office of Management           and Budget                            1


Chairman,      Committee       on Ways and Means                                                               1
Ranking     Minority    Member,       Committee       on Ways and Means                                        1
Chief of Staff, Committee             on Ways and Means                                                        1
Chairman,      Subcommittee           on Social Security                                                       2
Ranking     Minority    Member,       Subcommittee         on Social Security                                  1
Majority    Staff Director,     Subcommittee          on Social Security                                       2
Minority    Staff Director,     Subcommittee          on Social Security                                       2
Chairman,      Subcommittee           on Human       Resources                                                 1
Ranking     Minority    Member,       Subcommittee         on Human Resources

Chairman,      Committee       on Budget,      House of Representatives

Ranking     Minority    Member,       Committee       on Budget,      House of Representatives

Chairman,      Committee       on Government           Reform and Oversight

Ranking     Minority    Member,       Committee       on Government        Reform and Oversight

Chairman,      Committee       on Governmental           Affairs

Ranking     Minority    Member,       Committee       on Governmental       Affairs

                                                                                                       Page 2

Chairman,      Committee           on Appropriations,      House of Representatives                       1
Ranking Minority Member, Committee                      on Appropriations,
 House of Representatives                                                                                 1
Chairman, Subcommittee     on Labor, Health and Human Services,                          Education
 and Related Agencies, Committee on Appropriations,
  House of Representatives                                                                                1
Ranking Minority Member, Subcommittee   on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                                                 1
Chairman,      Committee           on Appropriations,      U.S. Senate                                    1
Ranking      Minority     Member,      Committee        on Appropriations,      U.S. Senate               1
Chairman, Subcommittee                on Labor, Health and Human Services, Education
 and Related Agencies,               Committee on Appropriations, U.S. Senate                             1
Ranking Minority Member, Subcommittee   on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                                              1
Chairman,      Committee           on Finance                                                             1
Ranking      Minority     Member,      Committee        on Finance                                        1
Chairman,      Subcommittee           on Social Security       and Family Policy                          1
Ranking      Minority     Member,      Subcommittee         on Social Security     and Family Policy      1
Chairman,      Senate      Special Committee            on Aging                                          1

Ranking      Minority     Member,      Senate   Special Committee            on Aging                     1

Vice Chairman, Subcommittee                  on Government         Management       Information
  and Technology                                                                                          1
President,     National     Council     of Social Security      Management        Associations,
  Incorporated                                                                                            1
Treasurer,     National      Council     of Social Security     Management        Associations,
  Incorporated                                                                                            1
Social Security         Advisory     Board                                                                1
AFGE General        Committee                                                                             9
President,     Federal      Managers       Association                                                    1
Regional     Public Affairs Officer                                                                       1


Total                                                                                                    97
                   Overview of the Office of the Inspector General


                                         Office of Audit
The Office of Audit (OA) conducts comprehensivefinancial and performance audits of the
Social Security Administration's (SSA) programs and makes recommendations to ensurethat
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assesswhether SSA' s financial statementsfairly present
the Agency's financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA' s programs. OA also conducts short-term
managementand program evaluations focused on issuesof concern to SSA, Congress,and the
generalpublic. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supportsthe Office of the Inspector General (OIG) by
providing information resourcemanagement;systemssecurity; and the coordination of budget,
procurement, telecommunications, facilities and equipment, and human resources. In addition,
this office is the focal point for the OIG's strategic planning function and the development and
implementation of performance measuresrequired by the Government Performance and Results
Act. OEO is also responsible for performing internal reviews to ensurethat OIG offices
nationwide hold themselves to the samerigorous standardsthat we expect from the Agency, as
well as conducting employee investigations within OIG. Finally, OEO administers OIG's public
affairs, media, and interagency activities and also communicates OIG's planned and current
activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (01) conducts and coordinates investigative activity related to fraud.
waste, abuse,and mismanagementof SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representativepayees,third
parties, and by SSA employeesin the performance of their duties. Or also conductsjoint
investigations with other Federal, State,and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: l) statutes,regulations, legislation, and policy directives
governing the administration of SSA' s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the DIG. The Counsel's office also administers the civil monetary penalty program.
